 Department of Health and Human Services 

         OFFICE OF 

    INSPECTOR GENERAL 





HOMELESS     PREVENTION               PROGRAMS 





                 Richard P. Kusserow
                 INSPECTORGENERAL
                    OEI-07-90-00100
                   EXECUTIVE                        SUMMARY

PURPOSE

The purpose of this inspection was to determine the overall effectivenessof selectedhomeless
prevention programs and to compare the effectivenessof prevention programs which provide
casemanagement servicesto thosewhich do not.


BACKGROUND

There is a growing belief among social serviceproviders that it is more cost effective and more
humane to prevent homelessnessrather than to just provide emergency shelter and food. The
Stewart B. McKinney Homeless AssistanceAct is a major sourceof Federal funding to combat
homelessness,however, the majority of the funding targetsthe needsof those who are already
homeless. The reauthorization of this Act in Public Law 100-628, Section 423, allows up to 20
percent of the funds in the Department of Housing and Urban Development’s (I-IUD) Emergency
Shelter Grants (ESG) Program to be usedfor homelessprevention. In addition, up to 25 percent
of the funds in the Department of Health and Human Services’sEmergency Community Services
Program can be used for homelessprevention activities. The Secretaryof Health and Human
Serviceshasplaced a high priority on the needsof homelessfamilies in his HHS Program
Directions Plan.

A homelessprevention program is defined as a program aimed at stabilizing personsuntil they
can get beyond the situation that placed them at risk of homelessnesswhile their living
arrangementsare still in place. Two categoriesof homelessprevention programs were studied.
The first category includes programs that provide families with one-time assistanceto meet the
family’s immediate needssuch asrent, utilities, housing location, and food. The secondcategory
includes those programs which, in addition to the one-time assistance,also provide case
management services..Casemanagementprograms provide a comprehensive setof services
aimed at stabilizing the family and helping them reach self-sufficiency.


METHODOLOGY

We selectedeight homelessprevention programs and reviewed casesinvolving families that had
experienced a severeeconomic hardship that had createda substantial risk of eviction and
becoming homeless. Criteria for selecting the eight programs were basedon HUD regulations
which are used by homelessprevention programs receiving ESG funds.

Casehistories and program intake,forms showed that families receiving benefits from these
programs had exhaustedtheir economic and social support systemsat the time they requested
assistance. We contacted families who had received assistanceto determine their current living
arrangements.


                                                i
    We also contacted each program administrator. We gatheredinformation about the types of
\   servicesthe program provided, the costs and sourcesof funding, and the number of families
    servedin 1989.


    FINDINGS

    Homeless prevention programs keepfamilies in their homes

         l	     We located 136 of the 159 families in our sample. Of these, 130 were in permanent
                housing six months to one year after receiving the homelessprevention assistance.

    The automatic or routine provision of casemanagement seryices did not increase the
    likelihood of a functional family remaining in permanent housing

         l	     One-time assistanceprograms were able to serve 16 times as many families per year
                with the sametotal budget.

         >	     Our study did not determine other effects that casemanagement servicesmay have
                had on the family.

    The average benefit paid by the eight homelessprevention programs was one-sixth the cost of
    a typical stay in a shelter

    The homelessprevention programs examined assistonly a small portion of needy families


    RECOMMENDATIONS

    The Interagency Council on the Homeless should promote homelessprevention programs as
    an effective approach to reduce homelessnessfor families

    Homeless serviceproviders should carefully consider whether to routinely and automatically
    provide case management servicesto all families which request emergency assistance

    The Interagency Council should promote further, more rigorous evaluations of case
    management services


    COMMENTS

    We received comments to the draft of this report from the Assistant Secretaryfor Planning and
    Evaluation, the Assistant Secretaryfor Human Development Services,the Assistant Secretary for
    Family Support Administration, and the Interagency Council on the Homeless. Basedon these
    comments, we made appropriate changesto the report. The comments are discussedfully at the


                                                   ii
  end of the sport. Many valuable comments dealt with areasbeyond the scopeof this study and
L will be considered in connection with future inspections dealing with homelessissues.




                                               ...
                                               Ill
                       TABLE                         OF CONTENTS

EXECUTIVE             SUMMARY

INTRODUCTION                 ...................................................................................................... 1 


FINDINGS ..................................................................................................................5 


       Homeless prevention programs keep families in their homes ........................5 


       The automatic or routine provision of casemanagement services 

       did not increase the likelihood of a functional family 

       remaining in permanent housing ......................................................................7 


       The average benefit paid by the eight homeless prevention programs 

       was one-sixth the cost of a typical stay in a shelter ......................................10 


       The homeless prevention programs examined assist only a small portion 

       of needy families .............................................................................................. 11 


RECOMMENDATIONS                         .........................................................................................13 


COMMENTS ............................................................................................................13 

APPENDICES

       Homeless Prevention Services ...................................................................... A-l

       Sources of Funding Homeless Prevention Programs ..................................B-l

       Federal Funding of Homeless Prevention Programs ................................. C-l

       Shelter Costs in the 8 Cities .......................................................................... D-l
                             INTRODUCTION

PURPOSE

The purpose of this inspection was to determine the overall effectivenessof selectedhomeless
prevention programs and to compare the effectivenessof prevention programs which provide
casemanagement servicesto those which do not.


BACKGROUND

In recent years, efforts have been made at Federal, State, and local levels to take a proactive
position on homelessness.There is a growing belief among social service providers that it is
more cost effective and more humane to prevent homelessnessrather than to just provide
emergency shelter and food.

The Stewart B. McKinney Homeless AssistanceAct, signed into law on July 22, 1987, is a major
sourceof Federal funding to combat homelessnessin the United States. It created a number of
new programs and augmentedexisting programs to protect and improve the lives and safety of
the homeless. The majority of all McKinney Act funding targetsthe needsof those who are
already homeless. However, when the Act was reauthorized in November 1988, Public Law
100-628, Section 423, allowed up to 20 percent of the funds in the Department of Housing and
Urban Development’s (HUD) Emergency Shelter Grants (ESG) Program to be usedfor homeless
prevention. In addition, the reauthorization allowed up to 25 percent of the funds in the
Department of Health and Human Services’s(HHS) Emergency Community ServicesProgram
to be used for homelessprevention activities.

Another sourceof funds under the McKinney Act that may be used for homelessprevention is
the Federal Emergency Management Agency (FEMA). The McKinney Act has also made it
possible for low-income families whose income and assetsare less than their monthly expenses
to receive food stampswithin five days of application.

Another sourceof Federal and Statehomelessprevention assistanceis the Aid to Families with
Dependent Children’s (AFDC) Emergency AssistanceProgram. In addition, other State and
local programs have been createdto servethat population at risk of becoming homeless. These
programs provide a range of servicesincluding rent and utility subsidies,housing location, and
landlord/tenant mediation.

Prevention programs aredefined in a HUD report, entitled “Homeless AssistancePolicy and
Practice in the Nation’s Five Largest Cities,” asprograms aimed at stabilizing personsuntil they
can get beyond the situation that placed them at risk of homelessnesswhile their living
arrangementsare still in place. Clearly, the purposeof “homeless prevention” programs is not
limited to avoiding episodesof homelessness,but also at avoiding evictions and other
destabilizing events.
Two categories of homelessprevention programs were studied. The first category includes
programs that provide families with one-time assistanceto fulfill an immediate need. There is
usually a set limit to the amount of cash assistanceprovided, and only the family’s basic needs
are met. The servicestypically offered are rent/mortgage payments, utility payments, referrals
for food and clothing, location of affordable housing, and landlord/tenant mediation.

The secondcategory includes thoseprograms which provide casemanagementas well ascash
assistance. This type of program identifies the various needsthat must be met to stabilize a
family and help them reach self-sufficiency. A casemanager works with the family to help them
accessthe servicesavailable to meet those needs. Besides addressingthe basic needsof housing
and food, casemanagement may also provide counseling, GED classes,job skills training, and
life skills instruction such as budgeting and parenting.

When a program usesthe casemanagementapproach, the families they serveautomatically and
routinely receive casemanagement services. Likewise, programs using the one-time assistance
method of homelessprevention only have the means to provide cash assistanceand a few basic
services(See Appendix A) regardlessof the type and extent of the families’ problems. It appears
that the decision determining which type of assistancethe family receivesdependson which
provider’s door the family opens.

The funding sourcesfor the programs selectedfor the study varied as shown in Appendix B.
Four of theseprograms received Federal funding from the McKinney Act (SeeAppendix C).
Other funding sourcesinclude State,county, city, private donations, foundation grants, United
Way, and fund raising.

METHODOLOGY

In order to gain a basic understanding of homelessprevention programs and obtain leadsin
identifying programs to study, we contacted the National Governor’s Association (NGA), the
U.S. Conference of Mayors (USCM), and the American Public Welfare Association (APWA).
Each of theseassociationsare actively involved in homelessissues. The NGA hasestablished
the Governor’s Homeless Policy Work Group which is currently examining the implementation
of the McKinney Act and tracking legislative proposals that affect the homeless. The USCM
annually collects data from 27 cities and publishes a report called, “A StatusReport on Hunger
and Homelessnessin America’s Cities.” The APWA is currently involved in two special projects
concerning the lack of affordable housing for the lowest of the low income.

We selecteda purposeful sample of eight programs from a universe of 27 programs collected
from the above mentioned associations. We usedthe following criteria to selecttheseeight
programs. They are basedon the HUD regulations used by homelessprevention programs
which receive ESG funds. These criteria were usedeven though not all of our studied programs
actually received ESG funds.

     l     The program must target families.
     l	    The assistanceprovided must be necessaryto avoid eviction or termination of utility
           services.
     l     The program assistsfamilies who are experiencing a suddencrisis.
     l	    The program’s assistanceis temporary and the families have a reasonableprospectof
           resuming a self-sufficient status.

Programs we selectedare located in the following cities.

                 Charleston, South Carolina                Minneapolis, Minnesota
                 KansasCity, Missouri                      Philadelphia, Pennsylvania
                 Los Angeles, California                   Salt Lake City, Utah
                 Louisville, Kentucky                      San Diego, California

Of the eight programs, Kansas City, Los Angeles, and Louisville routinely provided case
management services. The remaining five programs, Charleston, Minneapolis, Philadelphia, Salt
Lake City, and San Diego, provided assistanceon a one-time only basis and did not provide case
management.

For each of theseeight programs we obtained information concerning the types of servicesthe
program provided, the costs and sourcesof funding, and the number of families servedin 1989.
We also interviewed program administrators to obtain their perspectiveson the needsof their
clients and the effectivenessof their programs.

During the preliminary stagesof the inspection, the Office of the Assistant Secretaryfor
Planning and Evaluation requestedthat our study focus specifically on families. The Secretary
of Health and Human Serviceshasplaced a high priority on the needsof homelessfamilies in his
HHS Program Directions Plan.

We made onsite visits to each program and reviewed casefiles involving families. which were
opened in 1989 and closed for six months up to one year. We randomly selectedtwenty casesin
each of sevenprograms. The eighth program had only 19 casesthat met the selection criteria,
resulting in a total sample of 159 cases.

Casesin eachprogram were selectedonly when it was documented in the casehistory that the
family was on the verge of being evicted or becoming homelesswhen assistancewas first
sought. Casefiles either contained a narrative about the family’s background and reasonfor
seeking assistanceor an intake form with similar information. In all cases,we documented the
reasonwhy each family in our samplewas seeking homelessprevention assistance.The
majority of thesecaseswere seekingrent or mortgage assistancebecausethey were being
evicted due to the loss of their major income source. Some had experienceda marital separation
or divorce, while others had beeninvolved in a seriousaccident or experienced a medical crisis
that made it impossible to maintain their housing payment. Other casehistories statedthat the
families were living in overcrowded situations by doubling up with friends or relatives and were
being forced to move but had no resourcesor funds to do so.

While onsite, we made attempts to locate families using the last known telephone numbersfound
in the program casefiles. If contact was unsuccessful,other resourceswere usedto find a



                                              Page 3
current telephone number or to determine the families’ current status. These resourcesincluded
relatives, neighbors, employers, landlords, telephone books, local offices providing AFDC,
Social Security Disability Insurance, and Section 8 Housing Authorities.

After a family was located, whenever possible, we conducted a short interview by telephone
using a discussion guide. The interview was conducted to obtain economic and demographic
information, to determine the current living arrangementsof the family, to assessthe family’s
feelings about the effectiveness of the assistancethey received, and to determine if the family
becamehomeless at any time after receiving the assistance. The interviews were also usedto
confirm the initial preliminary assessmentthat the family had been on the verge of eviction or
homelessness.

Many of the homelessprevention programs requestedproof that the families had exhaustedtheir
economic and social support systemsbefore giving any monetary assistance.This especially
applied to those programs receiving McKinney money since one of the statutory criteria for
receiving ESG funds statesthat a prevention program’s assistancewill not supplant funding from
any other source. The programs would assessthe families’ eligibility for traditional types of
assistance<such as food stamps,AFDC, or Supplemental Security Income (SSI) before providing
assistance. Several programs required an eviction or foreclosure notice before they would offer
assistance. Eviction or loss of utility servicesis another requirement for the McKinney ESG
monies. Other programs required the families to contribute up to half of the back rent with funds
from personal sourcesbefore they would offer any cash assistance. Another example includes
having the families sell personal items in a garage sale to make money towards their rent.

The following statistics about the averagefamily in our sample are characteristic of a family who
is only slightly better off than a family who is already homeless. It standsto reasonthat this
family is slightly better off than a homelessfamily becausethey are still in a pm-homeless stage.

     l     54 percent received AFDC or SSI as their main income source 

     l     46 percent of families had at least one person employed 

     l     Average income was $615 per month 

     l     65 percent were single-female-headed households 

     l     Families had 3.9 members 

     l     Families had 2.5 children 

     l     Average age of male was 35 

     l     Average age of female was 33 





                                              Page4
                                     FINDINGS
The following findings describe the effectivenessof the eight homelessprevention programs in
keeping families in their permanent homes. In addition, a comparison was made to determine if
there was a difference in a family’s housing outcome when they received assistancefrom a
program that routinely offered casemanagementservicesover a program that did not.

Due to the inability to createa control group, we are not able to predict whether or not these
families would have become homelesswithout the homelessprevention assistance.However,
we do know thesefamilies were facing eviction. Eviction itself is a crisis for families, certainly
a serious disruption for them. Furthermore, had they been evicted, their risk of homelessness
would have greatly increased. Hence, we tried to determine if those families who received
assistancewere able to avoid eviction as well as homelessness.

For programs which offered casemanagementservices,we restricted our assessmentto the
impact the program’s serviceshad on the families’ housing situation. It is beyond the scopeof
this study to determine if a family should or should not have received casemanagementservices.
Since this study focused on housing servicesprovided by homelessprevention programs, we did
not review casefiles for ancillary problems the families may have had such as alcoholism, drug
abuse,or mental illness. Therefore, we could not determine if casemanagementwas or was not
used correctly. Our intention was simply to determine if casemanagementservicesaffected
housing outcomes, not whether they should have beenoffered for other reasons.


F'lNDINGl.

Hom$ess prevention programs keepfamilies in their homes

The eight homelessprevention programs have been effective in preventing evictions and
homelessness.As shown in the following chart, we located 136 of the 159 families identified in
our sample. Of these 136 families, we found 130 living in permanent housing six months to one
year after receiving the homelessprevention assistance.

Four of the families we located were living with relatives.

Two of the families were homelessat the time of the study. One of the homelessfamilies was
living in a transitional living facility.

We were unable to locate the remaining 23 (14 percent) of the families by any of several
resources. Theseresourcesincluded relatives, neighbors, employers, landlords, telephone books,
local offices providing AFDC, Social Security Disability Insuranceand Section 8 Housing
Authorities. According to the U.S; CensusBureau, 2.8 percent of the country’s population move
out of statein a year’s period of time. This may account for approximately four families. We
are unable to ascertainwhether the remaining 19 families, who were not located, were evicted,
are homeless,or in’permanent housing.
               159 Homeless Prevention Families:
                     Where Are They Now?


              Permanent Housi
                   130




                                                                        Living with Relative
                                                                                  4




As an additional basis for evaluating the effectiveness of theseprograms, we followed up on
specific casesto determine how well off families were after obtaining benefits. We conducted
telephone interviews with 84 (62 percent) of the families located and found 70 (83 percent) of
thesefamilies in the same residence as when they received the assistance. Of the 84 families
who were interviewed, only 1 had to live in a shelter after receiving the assistance. Only five
had to live with relatives or friends after receiving the assistance.

We also questioned clients about their satisfaction with the assistancethey received and the
statusof their current living arrangements. On a scale where the options to the client ranged
from very little, somewhat, or a whole lot of help, 74 (88 percent) of the clients interviewed
indicated that the assistancethey received was a great deal of help to their families. In fact, 73
(87 percent) of the families reported their current living arrangementsto be stable. These
families were in no danger of eviction or losing their homes at the time of interview.

We found that these families relied on the homeless prevention programs as a last resort because
they had exhausted their economic and social support systems. Over half of the families relied
on AFDC or SSI as their main sourceof income. However, this source of economic support was
not adequate to sustain the family during an economic crisis. Many families commented that the
assistancefrom the homeless prevention programs was what they needed to bolster their
economic and social support systems. Following are typical statementsmade by the families in
this regard.



                                               page
                                                  6
       Vt (the assistance) kept me and my three kid3 off the street.”

       “The rental payment helped me get over the hump so I didn’t get evicted.”

       “I would have been homeless ifI had not received aid from FEMA.”

While we were unable to establish a control group of families who did not receive assistance,we
were able to make somecomparisons with 454 families scheduledfor eviction by the
Philadelphia Housing Authority (PHA) in fiscal year (FY) 1989. The homelessprevention
program that deals with the PHA’s evictions was able to prevent 62 (14 percent) of thesefamilies
from losing their homes by offering financial support. Of these62 families, 14 were part of our
study and were found in permanent housing six months to one year after receiving assistance.
Thus, for thesecases,the program was successful.

The remaining 392 Philadelphia families were actually evicted. However, even though the
homelessprevention program was unable to provide cashassistance,it was able to help 100 (22
percent) of thesefamilies relocate to other permanent housing.

Therefore, 292 (74 percent) of the families who were evicted did not receive any assistance. The
Philadelphia homelessprevention annual report statedthat 20 (7 percent) of the families who
were evicted did become homeless. These 20 families were unable to find alternative housing on
their own and acceptedemergency shelter. In Philadelphia, once a family entersthe city’s shelter
system, the averagelength of stay is 6 months.

This leaves272 families (69 percent) who were evicted, received no assistancefrom the
homelessprevention program, and whose whereaboutsare unknown. It is not possible to know
if any of thesefamilies becamehomeless,but their eviction was almost certainly a serious
disruption for them, possibly placing them at greaterrisk of homelessness.


FINDING 2.

The automatic or routine provision of casemanagement servicesdid not increase the
likelihood of a functional family remaining in permanent housing

Casemanagementprograms and one-time assistanceprograms differ in the number of services
offered and the length of time they spendon a case. A casemanagementhomelessprevention
program typically offers cash assistancefor immediate needs,as well as a range of additional
servicesto help families with long-term improvement. Examples of theseservicesmay include
educational training, job skills training, and life skills instruction such as budgeting and
parenting. The one-time assistancehomelessprevention program provides cashassistancefor
rent/mortgage or utility payments and a few basic servicesto addressthe familys’ immediate
needs(SeeAppendix A). Corm&n servicesamong one-time assistanceprograms include
housing location, landlord/tenant mediation, and referrals to other agenciesfor food and clothing.
The families in our sample were functional families capable of living in society autonomously;
however, they had experienced some kind of severeeconomic hardship that had created a
substantial risk of their being evicted and possibly becoming homeless. Through narrative case
histories or program intake forms we learned that medical emergencies,domestic separations,
and lack of employment are 3 reasonswhy 42 percent (67 of 159) of the families in our sample
needed help.

We conducted a comparison of housing outcomes of families who received casemanagement
serviceswith families who received one-time assistance. Of the 159 functional families in our
sample, 59 (37 percent) received casemanagement servicesand 100 received one-time
assistance. We located 136 of the 159 families and found that 52 (38 percent) received case
management services and 84 (62 percent) received one-time assistance. We also found that 130
of the 136 located families were living in permanent housing six months to one year after
receiving assistance. Of the 130 families in permanent housing, 48 of the 52 (92 percent)
received casemanagement services and 82 of the 84 (98 percent) received one-time assistance.
For families who received casemanagement services, 3 were living with relatives and 1 family
was homeless, living in a transitional facility. Similarly, one of the families who received
one-time assistancewas living with relatives after receiving assistanceand only one of these
families was homeless. As a result of thesecomparisons, we found no significant differences in
the housing outcomes for families who received casemanagement services. This is shown in the
chart below.




          Case Management Had No Significant
              Impact on Housing Outcomes


          82
                                    1
                                                       48
                                                          Case - Ivl;;)agement



            0   Permanent Housing       fl   Living w/Relatives    q   Homeless
Due to the additional servicesprovided by the casemanagementprograms, the number of
families that can be servedis lower and the cost per family is higher. The averageprogram cost
per family for a one-time assistanceprogram was $143, while the casemanagementprogram
gave an averageamount of $2,223. Thus, a one-time assistanceprogram is able to serve 16
times as many families per year with the sametotal budget. A comparison between the two types
of programs is shown below. If a functional family has the mental and physical capability to
maintain their permanent housing, but hasbeen struck by a severeeconomic hardship, it may be
cost efficient for them to receive assistanceon a one or two-time basis.



                   A COMPARISON OF HOMELESS PREVENTION
                          PROGRAMS FOR FAMILIES

                                                  CASE                 ONE-TIME
                                              MANAGEMENT              ASSISTANCE

   Average # of Families
                                                          54                 873
   ServedPer Program in 1989

   Average Annual Budget*            I            $120,035       I      $124,410

   Average Program Cost
                                                    $2,223                  $143
   Per Family

   Average Length of Case            I              196 days     I        22 days

   * Figure pertains to amount of budget servingfamilies only.


Due to limitations in our study, we cannot make a determination about whether case
management was or was not usedcorrectly for the casesin our sample. However, the following
chart suggestsmany similarities between thosefamilies who received casemanagement and
those families who received one-time assistance.Furthermore, the deciding factor determining
whether a family received casemanagementserviceswas which program it applied to for
assistance. As noted earlier, some of the programs we examined did not offer casemanagement
services;others offered them to all applicants.




                                                     Pas 9
            SIMILARITIES EXIST BETWEEN CASE MANAGEMENT 

                     FAMILIES AND ONE-TIME FAMILIES 


                                     CASE MANAGEMENT                        ONE-TIME

   Female-headedHouseholds                      68%                              63%

   Two-Parent Households         I              31%               I              36%

   Number of Children                            2.5                              2.4

   Average Monthly Income                      $578                             $538

   Employed                                     31%                              34%

   Received AFDC                                37%                              34%


Our finding should not be construed to mean that we are discouraging the use of case
management as a viable and effective way to deal with families who have multiple problems
such as alcoholism, drug abuse,or mental illness. We did not attempt to examine the validity of
casemanagement asan important intervention in such cases. However, our study showed that
one-time assistanceprograms may be more cost effective in avoiding eviction.

Thus, we are suggesting that programs need to clarify their goals and carefully distinguish
between the needsof the families and their capability to help them. If the goal is to help as many
families aspossible avoid eviction and remain in their homes, the one-timeassistanceprogram is
probably more effective. If the goal is to provide additional long term help, casemanagement
services,although comparatively more expensive, may be warranted. In any event, more
stringent evaluation of casemanagement serviceswould be useful.


FINDING 3.

The average benefit paid by the eight homelessprevention programs was one-sixth the cost of
a typical stay in a shelter

The analysis of data gathered in this inspection found that each of the eight homelessprevention
programs am cost effective as shown in the following chart. These programs distributed a total
of $59,789 in cash assistanceto the 136 families we were able to locate. The averagecash
assistancegiven to thesefamilies for rent/mortgage, utilities, etc. was $440. The averagecost for
a family to stay one month in a shelter is $995.
We are not claiming that the families in our study who received assistancewould have been
homeless had they not received assistance. However, each family who avoids a shelter stay by
receiving assistanceis cost effectively servedby the homelessprevention program.




                       Shelter Costs Are Higher 

                   Than Homeless Prevention Costs 

                                                                             _____.._ - ..___
                                                                                           -_
            $140
                                                                                 -_--    ._._.....

                                                                                 ..__
                                                                                   _..---.-_._
                                                                                      ..__--.
                                      -_                                   _____-___--
                                                                                     .--.
             $40                      ----.-          _--...--               _-____...--.
                                                                                   _....
                                                                                    ._.-
             $20          .--.                                              .--- Y -.-..-..-...
                    /’           /-                                               /m
              $0
                         CH      KC            IA    LV       MN   PH     SLC       SD




FINDING 4.

The homeless prevention programs examined assist only a small portion of needyfamilies

Many of the eight homeless prevention administrators mentioned they are only able to addressa
small portion of the needsthat exist in their cities. For example, in Salt Lake City a survey was
conducted of all the social service agenciesin the metropolitan area. Results determined that
each agency received an averageof 100 calls per month requesting rent/mortgage assistanceor
relocation servicesafter the families had already been evicted. A further survey in Salt Lake
City found that the homeless prevention program is only able to assist 1 of every 12 calls. In
addition, this homelessprevention program is the only local agency that provides rent/mortgage
assistance,and their clientele has doubled in the last two years.

Six of the eight administrators said that the lack of funding and/or staffing is a major barrier to
their effectiveness. As noted earlier, in Philadelphia, the city’s Housing Authority scheduled454
evictions in 1989. The homeless prevention program was only able to prevent 62 of these



                                                    page 11
evictions with cash assistance. An additional 100 were relocated before the eviction took place.
With all their efforts, 64 percent of thesefamilies’ housing needsremained unmet.

The majority of our sampled families (79 percent) seeking assistancewere in need of money to
pay the rent or mortgage payment. The real estateindustry and home financing institutions
suggesta household spendno more th,an28 to 30 percent of their income for their housing
payment. Likewise, tenants in Section 8 Housing pay 30 percent of their monthly income for
rent. In many cases,theselow-income families who seek assistanceare living in private market
housing that is not affordable for their income level. For example, in Louisville, more than half
of the families we interviewed have a rent/mortgage payment that exceeds50 percent of their
monthly income. Only 7 percent of the families servedby the programs in our sample were
living in Section 8 Housing.

We askedeach of the homelessprevention administrators, “What is the most important thing that
should be done to end homelessnessand the threat of homelessness?” All eight administrators
statedthe solution to end homelessnessis more affordable housing.




                                             page12
                      RECOMMENDATIONS

The Interagency Council on the Homeless should promote homelessprevention programs as
an effective approach to reduce homelessnessfor families

Two of the purposesof the Interagency Council on the Homeless are to recommend
improvements in Federal programs and to collect and disseminateinformation relating to the
homeless. The Council is the ideal mechanism to deliver the messagethat homelessprevention
is an effective way to deal with a potential homelesspopulation of families.


Homeless serviceproviders should carefully consider whether to routinely and automatically
provide casemanagement servicesto all families which request emergency assistance

Families, who are able to live in society autonomously but who only require immediate cash
assistanceto meet the crisis that hasput them in a near-homelesssituation, may not needcase
management servicesto avoid eviction or homelessness.Program designersand administrators
need to carefully consider the goals and objectives of their programs. To the extent that their
purpose is to maximize the numbers servedand minimize the costs,Federal, State, and local .
funding bodies should not routinely or automatically provide casemanagementservicesand
should almost certainly not make casemanagementa requirement in homelessprevention
programs.

On the other hand, casemanagement servicesmay well satisfy other important family needs.
Assistance should be rendered according to an assessmentof the family’s specific needs.


The Interagency Council should promote further, more rigorous evaluations of case
management services

It was beyond the scopeof this study to evaluate the efficacy of casemanagementservicesas
such. We believe it would be useful to do so.


COMMENTS

We received comments to the draft of this report from the Assistant Secretaryfor Planning and
Evaluation, the Assistant Secretaryfor Human Development Services,the Assistant Secretaryfor
Family Support Administration, and the Interagency Council on the Homeless. Basedon these
comments, we made appropriate changesto the report Many valuable comments dealt with
areasbeyond the scopeof this study and will bk consideredin connection with future inspections
dealing with homelessissues.




                                             page 13
Several comments addressedhow it was determined in our sample that a family was “on the
verge” of eviction or homelessness.We expanded the Methodology section of the report to
further explain how this was done. Our selection criteria specified that only families that had
experienced a suddencrisis, that in fact put them on the verge of eviction or homelessness,
would be selected. We made an initial assessmentof this basedon a review of the caserecords.
Subsequently,we used interviews to gather data about economic and demographic information,
current living arrangements,and to confirm the initial assessmentthat the families had indeed
been on the verge of eviction or homelessness.

We were askedwhether we had any data on the extent to which the families in our sample had
multiple problems like drug abuseor mental illness. This was beyond the scopeof our study.
We have amended the Findings section of the report to statethat “Since this study focused on
housing servicesprovided by homelessprevention programs, we did not review casefiles for
ancillary problems the families may have had such as alcoholism, drug abuse,or mental illness.”

Several comments raised the issue that the study did not have a control group. We agreethat this
would have been desirable. However, asis often the case,both time constraints and resource
limitations prevented us from undertaking such a study. However, basedon the data which we
did collect, we were able to make somecomparisons of families who did and some who did not
receive assistanceusing information reported by Philadelphia’s homelessprevention program.
This information is now presentedin the first finding of the report. It provides stronger evidence
for our finding.

Two of the commentors statedthat our report erroneously assumedthat families which had
received assistanceand remained in their homes would have been homeless had they not
received assistance. We have no way of knowing if the families would have been homelesshad
they not received assistance. We agreethat such an assumption would be erroneous,and we did
not mean to make it. However, we do know that thesefamilies were at great risk of being
evicted. We revised our report to clarify that an eviction itself is a crisis for most families,
certainly a serious disruption for them;,and in all probability an eviction places them at a greater
risk of becoming homeless.

We received severalcomments that pointed out that the families in the sample had higher income
levels than the averageAFDC family, not to mention the averagehomelessfamily. This is not
surprising since we were not studying homelessfamilies, but rather those at risk of eviction and
possibly homelessness. The report has beenrevised to clarify that only families that were
functional and who received servicesfrom a homelessprevention provider were included in this
inspection. The scopeof this inspection focused on thesetypes of families, not on families who
were already homeless. The reasonit focused on functional families is that they are the target
population for homelessprevention programs.

By far, our most controversial finding was the one recommending against the routine or
automatic provision of casemanagement services. Several commentors interpreted our report as
being against the useof all casemanagementservices. We did not intend such a result. It was
beyond the scopeof our study to evaluate the efficacy of casemanagement servicesas such, and
we did not gather information to allow for any conclusions to be drawn about them. Our finding


                                               page14
&d recommendation were narrowly focused on the cost effectivenessof casemanagement
servicesin dealing with an immediate crisis such as an eviction. We stand by our finding and
recommendation in this regard, but have revised the report to clarify the narrower focus of our
study. We agreethat additional study of casemanagementservicesas such is warranted and
have recommended that it be undertaken.




                                              Page15
                                APPENdIX                    A
                             Homeless Prevention Services

 Services                  Case Management                  One-Time Assistance
                           KC         LA    LV         CH       MN      PH      SLC   SD

 Mortgage/Rent              X         X      X          X       X        X        X   X

 Utilities                  X         X      X          X                X            X

 Locate Housing             X         X      X                  X        X        X




KC   =   KansasCity, Missouri              MN     =   Minneapolis, Minnesota 

LA   =   Los Angeles, California           PH     =   Philadelphia, Pennsylvania 

LV   =   Louisville, Kentucky              SLC    =   Salt Lake City, Utah 

CH   =   Charleston, South Carolina        SD     =   San Diego, California 





                                            A-l
                                 APPENDIX                      B

                 Source of Funding Homeless Prevention Programs




City*                                                     X                   X

Private Doanations           X         X         X        X         X

Foundation Grants            X         X                  X

Fundraising                  X                            X

United Way                   X                                      X


   * In somecases,the ultimate source offunding for theseprograms is the HUD Community Development
   Block Grant or the HHS Community ServicesBlock Grant.

               KC    =     KansasCity, Missouri 

               LA    =     Los Angeles, California 

               LV    =     Louisville, Kentucky 

               CH    =     Charleston, South Carolina 

               MN    =     Minneapolis, Minnesota 

               PH    =     Philadelphia, Pennsylvania 

               SLC   =     Salt Lake City, Utah 

               SD    =     SanDiego, California 





                                               B-l
                            APPENDIX                 C
                 Federal Funding of Homeless Prevention Programs

                          FEDERAL
   PROGRAMS                                     AMOUNT         9-6OF BUDGET
                          SOURCE
Kansas City            MCKINNEY-ESG              $ 5,372              12%
Louisville             MCKINNEY-ESG              $19,ooo              71%
Salt Lake City         MCKINNEY-ESG/
                                                 $37,500              45%
                       FEMA
San Diego              MCKINNEY-FEMA            $14o,ooo             100%

    ESG = Emergency Shelter Grant from the Department of HUD
    FEMA = Federal Emergency Management Agency




                                       C-l
                                     APPENDIX                         D

                                     Shelter Costs In the 8 Cities

Shelter costs to houseone person for one night varies from city to city. Costsranged from $7.50
in Charleston to $12.50 in San Diego. The length of time a family spendsin a shelter also varies
from city to city. In Minneapolis a family staysan averageof 7 days in a shelter. In Philadelphia
and Kansas City the averagelength of stay for a family in a shelter is 180 days.

                                                 LOCATED               AVERAGE
                          COST PER                                                           SHELTER
        CITY                                    PERSONS IN             LENGTH
                           NIGHT                                                              COSTS
                                                  SAMPLE               OF STAY

  CH                            $7.50                 73                     75 days        $41,062
  KC                           $10.50                  52                  180 days         $98,280

I LA                  I         $8.11       I          81         I          34days     1 $22,335
  LV                           $10.18                  62                    60 days        $37,870
                                $8.78                  50                     7 days          $3,073
  PH                           $10.50                 79                   180 days        $149,310
  SLC                          $10.00                 48                     60 days        $28,800
  SD                           $12.50                 69                    30 days         $25,875
                                                                                Total      $406,605

       Note: Shelter costswere computedby multiplying costper night, timespersons in sample, times average
       length of stay.

                    CH = Charleston, South Carolina 

                    KC = KansasCity, Missouri 

                    LA = Los Angeles, California 

                    LV = Louisville, Kentucky 

                    MN = Minneapolis, Minnesota 

                    PH = Philadelphia, Pennsylvania 

                    SLC = Salt Lake City, Utah, 

                    SD = San Diego, California 





                                                     D-l
